July 21, 2008

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:           Management Advisory – Fiscal Year 2008 – Use of No-Fee
                   Money Orders (Report Number FF-MA-08-001)

This report presents the results for our fiscal year (FY) 2008 review of the U.S. Postal
Service’s Use of No-Fee Money Orders (Project Number 08BD009FF002). This is a self-
initiated report designed to advise you on financial risk. Click here to go to Appendix A for
additional information about this review.

Conclusion

Based on our analysis of prior U.S. Postal Service Office of Inspector General (OIG)
audits and investigations, we are concerned that a significant risk exists related to the
misuse of no-fee money orders for local purchases by individual post offices. Postal
Service policy limits the use of no-fee money orders for purchases to a one-time local
expense, not to exceed $500.1 The Postal Service established a hierarchy of payment
methods for local purchases that is flexible and designed to meet the payment demands
of all types of postal units. While we recognize a practical need for the Postal Service to
use no-fee money orders for salary and travel advances, and to replace customers’
money orders that are mutilated or damaged, our audits and investigations showed that
local post offices continued to inappropriately use no-fee money orders as a convenient
payment method for purchases when other payment methods were required. The Postal
Service will continue to have an increased risk of financial loss until post offices adhere to
prescribed purchasing requirements.

Use of No-Fee Money Orders

To understand the extent to which no-fee money orders were used throughout the Postal
Service, we obtained and analyzed data from the Enterprise Data Warehouse (EDW) for
no-fee money orders used for all purposes.




1
    Field Accounting Procedures (FAP), Section 2203, December 2007 (draft).
Fiscal Year 2008 – Use of No-Fee Money Orders                                                                                                                                              FF-MA-08-001



In Chart 1, the bar graph shows the number of no-fee money orders issued from FY 2006
through Postal Quarter 1, FY 2008, and the line graph shows the dollar value of these
no-fee money orders.2

                                                               Chart 1: No-Fee Money Orders

                                                                             Number                   Dollar Value

             155,000                                                                                                                                                                      $35,000,000
                                                                                                                      150,772                            149,296

             150,000                                                                                                                                                                      $30,000,000
                                 145,728
                                                                                                      144,951
             145,000                                                                                                                                                                      $25,000,000
                       141,892                                                                                                      140,478
                                                                   140,692




                                                                                                                                                                                                        Dollar Value
                                                                                    139,332
             140,000                                                                                                                                                                      $20,000,000
    Number




                                                  134,481
             135,000                                                                                                                                                                      $15,000,000
                                                                                                                                                                         133,159


             130,000                                                                                                                                                                      $10,000,000


             125,000                                                                                                                                                                      $5,000,000


             120,000                                                                                                                                                                      $0
                         Q



                                       Q



                                                        Q



                                                                         Q



                                                                                          Q



                                                                                                           Q



                                                                                                                            Q



                                                                                                                                             Q



                                                                                                                                                              Q



                                                                                                                                                                               Q
                          ua



                                        ua



                                                         ua



                                                                          ua



                                                                                           ua



                                                                                                            ua



                                                                                                                             ua



                                                                                                                                              ua



                                                                                                                                                               ua



                                                                                                                                                                                ua
                            rt



                                          rt



                                                           rt



                                                                            rt



                                                                                             rt



                                                                                                              rt



                                                                                                                               rt



                                                                                                                                                rt



                                                                                                                                                                 rt



                                                                                                                                                                                  rt
                             er



                                              er



                                                               er



                                                                                er



                                                                                                 er



                                                                                                                  er



                                                                                                                                   er



                                                                                                                                                    er



                                                                                                                                                                     er



                                                                                                                                                                                      er
                                1,



                                                 2,



                                                                  3,



                                                                                   4,



                                                                                                    1,



                                                                                                                     2,



                                                                                                                                      3,



                                                                                                                                                       4,



                                                                                                                                                                        1,



                                                                                                                                                                                         2,
                                   F



                                                    F



                                                                     F



                                                                                      F



                                                                                                       F



                                                                                                                        F



                                                                                                                                         F



                                                                                                                                                          F



                                                                                                                                                                           F



                                                                                                                                                                                            F
                                  Y



                                                   Y



                                                                    Y



                                                                                     Y



                                                                                                      Y



                                                                                                                       Y



                                                                                                                                        Y



                                                                                                                                                         Y



                                                                                                                                                                          Y



                                                                                                                                                                                           Y
                                       20



                                                        20



                                                                         20



                                                                                          20



                                                                                                           20



                                                                                                                            20



                                                                                                                                             20



                                                                                                                                                              20



                                                                                                                                                                               20



                                                                                                                                                                                                20
                                         06



                                                          06



                                                                           06



                                                                                            06



                                                                                                             07



                                                                                                                              07



                                                                                                                                               07



                                                                                                                                                                07



                                                                                                                                                                                 08



                                                                                                                                                                                                  08
                                                                                                 PQ




Looking at FY 2007 only, the Postal Service issued an estimated 575,533 no-fee money
orders, totaling $74.5 million. We attempted to isolate the amount of no-fee money orders
used strictly for local purchases and refunds, and estimate that $46 million were issued
for these types of transactions.3 (The $46 million excluded no-fee money orders issued
for salary and travel advances, and as replacements.)

In analyzing the data further, we found several areas of concern. First, we estimate that
in FY 2007, the Postal Service issued more than 13,170 no-fee money orders in excess
of $500, with a total value of more than $8 million. These money orders were not used for
salary and travel advances or for replacements. Second, the continued use of no-fee
money orders indicates they were for nonemergency situations.

2
  The increase in the value of no-fee money orders issued in Quarter 1, Fiscal Year 2008 was the result of an increase
in salary advances issued.
3
  The Postal Service can issue refunds using no-fee money orders, cash, or checks paid through the Scanning and
Imaging Center. However, Postal Service system data does not identify or segregate refunds made by cash, no-fee
money order, or check. Therefore, an unidentifiable portion of the $46 million was for refunds made by no-fee money
orders.




                                                                                                      2
Fiscal Year 2008 – Use of No-Fee Money Orders                                                   FF-MA-08-001




Specifically, nationwide we identified:

•     Five postal units that issued a total of more than 1,000 no-fee money orders in FY
      2007 for purposes other than salary and travel advances.
•     Twenty-three units that did not sell money orders to the public in FY 2007 but issued
      no-fee money orders totaling over $200,000 (not including money orders issued for
      salary and travel advances).
•     A bulk mail center that issued 195 no-fee money orders in FY 2007; our data showed
      that only 27 of these money orders were for salary and travel advances.

Our concerns regarding no-fee money orders date back to FY 2005 when we reported
misuse of no-fee money orders in the Chicago District.4 Recently, the OIG has conducted
criminal investigations involving no-fee money orders; in one instance, a postmaster used
no-fee money orders to pay his credit card bills by concealing these payments as
expenses at his post office. Similarly, our analysis surfaced no-fee money order
transactions in which a sales and service associate issued no-fee money orders to herself
and used a no-fee money order as a down payment on a vehicle, recording these
payments as local expenses for the post office. We have also seen a recent case of
embezzlement of salary advances using no-fee money orders, indicating that the risks
associated with no-fee money orders extend to the use of these money orders for salary
and travel advances.

Based on our most recent analysis, investigations, and audits, we believe that the Postal
Service should consider restricting and monitoring the use of no-fee money orders to
mitigate further risk.

We recommend the Vice President, Controller:

      1. Reinforce the payment hierarchy and proper use of no-fee money orders to pay for
         local purchases and increase monitoring of no-fee money orders use.

Management’s Comments

Management agreed with the finding and recommendation and stated the Vice President,
Controller, in conjunction with the Vice President, Supply Management, will issue
communication policies and procedures regarding the payment methods hierarchy no
later than September 30, 2008. Management is also considering enhancements to the
Point-of-Sale system that will include a drop down menu listing usage types for no-fee
money orders. Management stated that due to system changes, resources priorities and
budget restrictions, this action will not be completed until September 30, 2010.
Management’s comments, in their entirety, are included in Appendix B.


4
    IMPAC Card Purchases – Chicago District (Report Number FF-AR-06-038, dated December 30, 2005).




                                                        3
Fiscal Year 2008 – Use of No-Fee Money Orders                                  FF-MA-08-001




We recommend the Vice President, Controller:

   2. Evaluate the feasibility of restricting the use of no-fee money orders for local
      purchases in order to reduce the Postal Service’s exposure to financial loss.

Management’s Comments

Management agreed with the finding and recommendation and stated the immediate
restriction of no-fee money orders is not feasible at this time. However, management
plans to establish a task force to review and evaluate no-fee money order usage and
determine if restricting usage would be feasible in the future. Management stated the
task force would submit its recommendations by January 31, 2009.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and actions planned
should correct the issues identified in the findings.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, Director, Field
Financial Central, or me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
for
John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment




                                                4
Fiscal Year 2008 – Use of No-Fee Money Orders       FF-MA-08-001



cc:    H. Glen Walker
       William P. Galligan
       Kathy Ainsworth
       Susan Brownell
       Stephen J. Nickerson
       Vincent H. DeVito, Jr.
       Steven Phelps
       Richard Rudez
       Susan Witt
       Katherine S. Banks




                                                5
Fiscal Year 2008 – Use of No-Fee Money Orders                                                         FF-MA-08-001



                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service, unlike other federal agencies, issues no-fee money orders to pay for
certain nonrecurring items, including salary5 and travel6 advances, replacements,7 and
local purchases. The Postal Service has established a preferred method of paying
recurring expenses, with the no-fee money order being the least preferred method. As
stated in Postal Service policy, no-fee money orders are not to exceed $500 and are to be
used for one-time, emergency payments to a vendor who is not listed in eBuy and does
not accept the SmartPay purchase card.8 The hierarchy of methods for local purchases
follows a preferential order:9

    •   eBuy.

    •   SmartPay purchase card.

    •   Invoice payments – Postal Service (PS) Form 8230, Authorization for Payment, or
        PS Form 8232, Payment for Personal Services Contractors, submitted to the
        Scanning and Imaging Center and processed through the Accounts Payable
        System.

    •   Local Payments:
           o Cash for emergency one-time expenses, not to exceed $25.
           o No-fee money order for emergency one-time local expenses, not to exceed
              $500.10

OBJECTIVE, SCOPE, METHODOLOGY

The objective of our review was to examine recent audit and investigative work on the
Postal Service’s use of no-fee money orders and analyze this issue to identify potential
areas of risk. To accomplish our objective, we reviewed audit and investigative reports
from FYs 2005 through 2007. We reviewed data from the EDW on money order issuance
and post office expenses for FY 2006 through Postal Quarter 2, FY 2008.



5
  Postal Service policy allows the use of no-fee money orders for a salary advance when an employee receives a
payroll check that is less than the amount due, or when the payroll register does not show that a check was issued to
the employee.
6
  Postal Service policy allows the use of no-fee money orders for last-minute official travel (less than 2 weeks in
advance) when there is not enough time for an employee to receive a check from Accounting Services. The employee
may request an emergency travel advance not to exceed $500.
7
  Postal Service policy allows the use of no-fee money orders to replace customers’ money orders that are mutilated or
damaged.
8
  No-fee money orders are to be used only on an infrequent, emergency basis.
9
  FAP, Section 2203.
10
   FAP, Section 2201.1.




                                                          6
Fiscal Year 2008 – Use of No-Fee Money Orders                                                          FF-MA-08-001



We conducted this review from February through July 2008 in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on May 28, 2008,
and included their comments where appropriate. Although we relied on data obtained
from the EDW, we did not test the validity of the data and controls over the system.

PRIOR AUDIT COVERAGE

The OIG has not conducted audits specifically related to no-fee money orders in the past
5 years, but has reviewed payments made using no-fee money orders as part the annual
financial installation audits of post offices, branches, and stations.11 In addition, we
reported the misuse of no-fee money orders in our audit of purchase card transactions in
the Chicago District in FY 2005 (IMPAC Card Purchases – Chicago District, Report
Number FF-AR-06-038, dated December 30, 2005).




11
  See audit report Fiscal Year 2007 Financial Installation Audits – Post Offices, Stations, and Branches (Report
Number FF-AR-08-122, dated March 5, 2008).




                                                           7
Fiscal Year 2008 – Use of No-Fee Money Orders                 FF-MA-08-001



                          APPENDIX B. MANAGEMENT’S COMMENTS




                                                8
Fiscal Year 2008 – Use of No-Fee Money Orders       FF-MA-08-001




                                                9
